<html>
<title> - EMERGENCY RESPONSE IN THE MARCELLUS SHALE REGION</title>
<body><pre>[Senate Hearing 111-1148]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1148

            EMERGENCY RESPONSE IN THE MARCELLUS SHALE REGION

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

     EXAMINING THE EMERGENCY RESPONSE IN THE MARCELLUS SHALE REGION

                               __________

                     JULY 26, 2010 (Pittsburgh, PA)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE

76-709 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
ROBERT P. CASEY, JR., Pennsylvania   ORRIN G. HATCH, Utah
KAY R. HAGAN, North Carolina         LISA MURKOWSKI, Alaska
JEFF MERKLEY, Oregon                 TOM COBURN, M.D., Oklahoma
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas
MICHAEL F. BENNET, Colorado         
CARTE P. GOODWIN, West Virginia     

                      Daniel Smith, Staff Director
                  Pamela Smith, Deputy Staff Director
     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)













                            C O N T E N T S

                               __________

                               STATEMENTS

                         MONDAY, JULY 26, 2010

                                                                   Page
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................     1
French, Robert P., Director, Pennsylvania Emergency Management 
  Administration, Harrisburg, PA.................................     4
    Prepared statement...........................................     6
Iannacchione, Anthony, Associate Professor and Director of the 
  Mine Engineering Program, University of Pittsburgh, Pittsburgh, 
  PA.............................................................     8
    Prepared statement...........................................    10
DeIullis, Nicholas, President and Chief Operating Officer, CNX 
  Gas Corporation, Pittsburgh, PA................................    12
    Prepared statement...........................................    14
Chappel, June, Local Resident, Hopewell Township, Washington 
  County, PA.....................................................    16
    Prepared statement...........................................    18
Tijerina, Ralph, CSP, Chairman, Safety Committee, Pennsylvania 
  Independent Oil and Gas Association; Health, Safety and 
  Environmental Director, Range Resources, Canonsburg, PA........    20
    Prepared statement...........................................    23

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Independent Petroleum Association of America.................    35
    Response to question of Senator Enzi by Ralph Tijerina.......    35

                                 (iii)

  

 
            EMERGENCY RESPONSE IN THE MARCELLUS SHALE REGION

                              ----------                              


                         MONDAY, JULY 26, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Pittsburgh, PA.

    The committee met, pursuant to notice, at 9:28 a.m. in 
Courtroom 6A, Courthouse for the U.S. District Court, Western 
District of Pennsylvania, 3110 U.S. Courthouse, Hon. Robert P. 
Casey, Jr., presiding.
    Present: Senator Casey.

                   Opening Statement of Senator Casey

    Senator Casey. Thank you very much. The U.S. Senate 
Committee on Health, Education, Labor, and Pensions will come 
to order.
    We'll start our hearing this morning with a statement by 
me, and then we'll get into the testimony from our witnesses. 
Then, of course, I'll ask some questions.
    I'm grateful for this opportunity to come to Pittsburgh to 
talk about emergency response in the Marcellus Shale region. We 
have a lot to talk about and I know only limited time. I start 
this morning with a reflection about our Commonwealth.
    The reason we're here this morning is because we love our 
Commonwealth, and we want to make sure that when a new 
opportunity arises, whether it's a new opportunity to create 
jobs and to build a stronger economy or other opportunities, 
that we take steps to get it right.
    In Pennsylvania today, we know we have, like so many States 
in this country, a tremendous economic and jobs challenge. We 
have more than 591,000 people out of work. We're in the midst, 
even though we're recovering--I believe we've recovered a great 
deal in terms of our economic strength--but despite that, we 
are still in the midst of a difficult time period for our 
workers and our families in so many communities. We're 
concerned about that, as we always are in Pennsylvania. That's 
always one of our most difficult challenges.
    We're also concerned about health and safety. When it comes 
to an issue like drilling, whether its gas drilling, generally, 
and in particular drilling that relates to the Marcellus Shale, 
we're concerned about health and safety.
    Finally, we're concerned about our environment. This is an 
issue and this is a challenge that goes back to the beginning 
of the founding of our Commonwealth. We know, for example, that 
a number of years ago, we had a new Constitutional provision in 
the Pennsylvania Constitution, and though we gather today in a 
Federal building and we're talking about Federal legislation 
and I'm a Representative of the Federal Government, I've always 
believed in Pennsylvania's Constitutional provision, Article I, 
Section 27,

          ``People shall have a right to clean air, pure water 
        and to the preservation of the natural, scenic, 
        historic and aesthetic values of the environment. 
        Pennsylvania's public natural resources are the common 
        property of all the people, including generations yet 
        to come. As trustee of these resources, the 
        Commonwealth shall conserve and maintain them for the 
        benefit of all the people.''

    I've always believed that that Constitutional provision is 
one of the best recitations and the best summaries of what our 
challenge is as it relates to the environment in Pennsylvania, 
our quality of life now and into the future. And that idea that 
we are a trustee, we don't just get to do whatever we want in 
our time, in our generation, that we are, in fact, a trustee, 
I've always believed that that principle is central to who we 
are as a Commonwealth.
    Often we got it right in our history. Sometimes we got it 
wrong. We have to make sure that when it comes to the Marcellus 
Shale drilling or any extraction of a natural resource, that we 
get it right. Part of getting this right is not just the debate 
about the environment and the drilling that is taking place and 
will continue to take place. Part of getting this right is 
having in place rules and procedures for emergency response 
that make sure that we protect the workers, that we protect 
communities, and that we also protect the environment and 
quality of life.
    We can't do that very well if we simply respond to an 
emergency after the fact, if we don't have procedures in place 
and rules in place. We saw in the last couple of weeks and 
months examples of situations in Pennsylvania, whether it's a 
blowout in Clearfield County or whether it's an actual 
explosion in West Virginia or whether it's the tragedy of just 
the other day in Indiana Township, all different circumstances 
I realize, but all have a common thread that sometimes we don't 
have enough procedures in place to protect people's lives and 
to protect the community.
    Emergency response procedures, I believe, are needed to be 
strengthened, and new rules should be in place. One of the ways 
to do that is to enact legislation. I've introduced or will be 
introducing, I should say, and I've already made public a 
discussion draft of the FASTER Act of 2010, the Faster Action 
Safety Team Emergency Response Act of 2010. Here's what it 
does, and I'll just give a broad overview and summary.
    It provides the Occupational Safety and Health 
Administration with the ability to draft regulations to enhance 
emergency response procedures at oil and gas wells--that's all 
oil and gas wells, not just Marcellus Shale--for example, 
having an employee knowledgeable in responding to emergency 
situations present at the well at all times, at all times, 
during the exploration or drilling phase.
    Second, make available a certified response team within 1 
hour of ground travel time. We're seeing over and over again 
the time interval between something happening and a response 
that's appropriate and necessary; requirements to contact local 
first responders within 15 minutes of the commencement of an 
emergency situation; a requirement that contact is made with 
the Occupational Safety and Health Administration within 1 
hour; contact the National Response Center within 1 hour; 
provide communication technology at the well site; provide 
annual training to local first responders; and, finally, file 
an annual report with OSHA that names the certified response 
team assigned to each well of the operator.
    We have an opportunity to take steps to get this right as 
it relates to emergency response, and today we're going to 
explore a number of ways to do just that.
    Let me introduce our witnesses ever so briefly. I won't 
provide full biographies in the interest of time, but I do want 
to make sure our witnesses were introduced first. Then I'll go 
from left to right and introduce them for their testimony.
    Our first witness is Robert French. Mr. French is the 
director of the Pennsylvania Emergency Management Agency. He 
was appointed to this position in 2007 by Governor Rendell. 
Prior to joining PEMA, he was the Deputy Adjutant General of 
Pennsylvania, which he assumed in 2004.
    The second witness is Anthony Iannacchione, associate 
professor and director of the Mining Engineering Program at the 
University of Pittsburgh. From 1975 until 2008, he served in 
multiple positions with the U.S. Government that dealt directly 
with mining research. He holds a Bachelor of Science degree 
from California State University, also an M.S. in Earth 
Planetary Science from the University of Pittsburgh, and two 
more University of Pittsburgh degrees, M.S. in civil and 
environmental engineering, and a Ph.D. in civil and 
environmental engineering as well.
    Our third witness is Nicholas DeIullis, president and chief 
operating officer of CNX Gas Corporation, and executive vice-
president of CONSOL, CONSOL Energy. He has been with CONSOL 
for--I don't know how many years.
    Mr. DeIullis. Twenty.
    Senator Casey. Twenty. There's a blank in my notes. He 
doesn't look the part, but that's OK. He's hiding his age well. 
While working at CONSOL, he obtained his Master's degree in 
Business Administration and a law degree from Duquesne 
University. He's past director of the Independent Petroleum 
Association of America.
    The fourth witness is June Chappel. June is a longtime 
resident of Washington County, Hopewell Township. Recently the 
land neighboring next to June was purchased by a gas company. 
June will provide firsthand experience on living near a gas 
well site.
    June, thank you for being here.
    Finally, our last witness is Ralph Tijerina, chairman of 
the Safety Committee under the Pennsylvania Independent Oil and 
Gas Association and the Health, Safety and Environmental 
director at Range Resources in Canonsburg, Washington County.
    I guess we'll go left to right. Mr. French, you can start. 
We're trying to keep everyone to 5 minutes, if we can. Then 
I'll have some questions. But if you go over 5 minutes, there's 
really nothing I can do about that other than gavel you down. 
Gavel is just one strategy I have in place. Thank you very 
much.

STATEMENT OF ROBERT P. FRENCH, DIRECTOR, PENNSYLVANIA EMERGENCY 
           MANAGEMENT ADMINISTRATION, HARRISBURG, PA

    Mr. French. Good morning, Senator Casey. Thank you for the 
opportunity to be with you today for the hearing. First and 
foremost, we cannot do what we do to protect our citizens 
without a whole host of individual organizations, Government 
and private industry working together. So on behalf of the 
emergency management community and our first responders across 
the State, I want to thank you for your continued support 
toward all of the emergency management actions that we must 
take putting public safety first.
    Also, I'd be remiss if I didn't commend all of our first 
responders who from day to day, most volunteers, are training 
to prepare for the event of any type of all hazards emergency 
that they are confronted with. They are truly a professional 
force even though almost totally voluntary.
    As you know, since 2008, Marcellus Shale drilling activity 
in the Commonwealth has increased significantly, and 
projections are they will be continued and there will be 
dramatic growth of the industry for the coming years. There are 
substantial benefits of the production of natural gas; however, 
Marcellus Shale for us as emergency management provides some 
inherent risks that we must be prepared for in the event of any 
kind of incident that takes place.
    As you have just mentioned, there have been some recent 
examples that we can look to both in Clearfield County and also 
in Susquehanna County that we have had to respond to when 
called. The role of the Pennsylvania Emergency Management 
Agency is to coordinate State agency response and to support 
county and local government in the areas of disaster mitigation 
and preparedness, planning and response, as well as recovery 
from any mandated natural disaster.
    Regarding our public safety role as it relates to Marcellus 
Shale, I'll discuss what we have done to date and things we're 
planning to do to continue to improve our readiness levels in 
the future. I'd also like to take just a moment to make a 
comment about the proposed legislation that you've just 
referenced.
    What have we done to date? Well, one of the frequent 
questions that I am asked, Senator, is what does PEMA do when 
there are no emergencies or disasters each day? The real 
question emanates out of seeing that response capability that 
most people think of us as giving, but as you know and the 
committee knows, we really have four different roles that we 
fill, one of trying to prevent and to protect, to be able to 
respond as most think of the emergency responders' roles, and 
then to help with recovery.
    One of our agency's primary functions is to work with 
county and local emergency managers to assure that throughout 
the Commonwealth, there's a state of readiness to respond to 
any type of disaster. In emergency management, we call it an 
all hazard preparation.
    At PEMA we're pleased that we have been recognized over the 
past few years by the Federal Emergency Management Agency and 
by the Emergency Management Accreditation Program to demon-
strate readiness levels being at a high level in the 
Commonwealth.
    Based upon the training, the accreditation, it's important 
to us to be able to prepare first so that we are able to 
respond. In regard to Marcellus Shale, we've done a number of 
things to prepare, such as training our local county emergency 
management agencies, training our State agency representatives, 
and working with our private industry partners to ensure that 
our first responders have an understanding of what they could 
be confronted with when coming onto a Marcellus Shale site.
    It's been important for such things like 911 centers to 
actually have specific locations so that in the least amount of 
time first responders can get to the affected site. So between 
911, between the training that goes on at all levels, we have 
been working diligently since 2008 really to improve the 
understanding and the readiness to respond to a Marcellus Shale 
incident.
    One of the things that we are doing in the future is we are 
now in the process of partnering with the industry in the 
safety side of the house to ensure that when first responders 
need to respond, that they have a better understanding of what 
they will be confronted with.
    We will begin in September to offer training in concert 
with FEMA and a safety committee from the industry so that we 
are better prepared, and we'll continue to improve that 
preparedness as we go on.
    As far as the future goes, we will continue to work with 
the training aspect to help further develop the best techniques 
for response. We'll continue to work with the safety coalition 
that has already been doing some terrific familiarization 
training, and we will also be working with providing some 
training by our own representatives from the office of State 
Fire Commissioner.
    In regard to the training and the preparation and the 
response, I think, as we've noted, for the last couple of 
incidents that have taken place, Senator, there has been a very 
capable response by the first responders at both Clearfield and 
at Susquehanna. All of us though recognize that there's more 
that we can do to better train and better be prepared, and we 
will continue to do that.
    Relative to the FASTER Act that you had mentioned, sir, we 
all recognize that we are never at a point where we're totally 
ready for every hazard that might come our way, and we will 
look forward to working with you and your staff to move forward 
with any legislation that you've outlined here in the FASTER 
Act.
    We know that one of the keys for us for response is to make 
sure that we are getting notified immediately when there are 
incidents taking place as well. We learned through our After 
Action Review at Clearfield County, for example, that we needed 
to have a quicker notification in order to be able to provide a 
quicker response, and we have already begun to work between the 
Department of Environmental Protection and ourselves with the 
industry representatives to ensure that there is immediate 
notification when we do have an incident at a site.
    I think last Friday here in Allegheny County, that 
certainly showed that the changes were there because we did get 
immediate notification.
    So, sir, whatever we can do to work with you and your staff 
on the legislation, we'll be glad to do. On behalf of Governor 
Rendell and the 12 million Pennsylvanians that we serve, I want 
to thank you again for your work and your commitment to helping 
to make sure our citizens are being taken care of with adequate 
training for our first responders.
    [The prepared statement of Mr. French follows:]
                 Prepared Statement of Robert P. French
    Senator Casey and members of the Senate Health, Education, Labor, 
and Pensions Committee, I thank you for the opportunity to appear 
before you today to discuss the Commonwealth's work relating to 
emergency planning and preparedness for Marcellus Shale drilling. First 
and foremost, we can not provide the support our citizens deserve by 
ourselves. On behalf of our emergency management community and first 
responders across the State, I want to thank you for your continued 
interest and support of our public safety mission.
    As you know, since 2008 the Marcellus Shale drilling activity in 
the Commonwealth has increased significantly. Projections are that 
there will be continued, dramatic growth of the Marcellus Shale 
industry in the coming years. There are substantial benefits of natural 
gas production for our Commonwealth and its citizens. However, 
Marcellus Shale drilling is an industry that does have inherent risks 
as evidenced by the recent blowout at a well in Lawrence Township, 
Clearfield County and a fire at a separator tank in Susquehanna County.
    The role of the Pennsylvania Emergency Management Agency (PEMA) is 
to coordinate State agency response and to support county and local 
governments in the areas of disaster mitigation and preparedness, 
planning, and response to and recovery from man-made or natural 
disasters. Regarding our public safety role as it relates to Marcellus 
Shale activity, I will discuss what PEMA has done to date and our 
future plans. In addition, I will address a couple of matters regarding 
the Faster Action Safety Team Emergency Response (FASTER) Act of 2010 
that you are proposing.
               pema's engagement and preparedness to date
    One of the frequent questions I am asked is, ``What does PEMA do 
when there are no emergencies or disasters.'' This question emanates 
from the public perception that PEMA's primary function is that of a 
response agency. As those of you on this committee know, that is not 
the case. It is just one of the four areas we address: prevention, 
protection, response, and recovery. One of our agency's primary 
functions is to work with county and local emergency managers to assure 
that throughout the Commonwealth there is a state of readiness to 
respond to any type of emergency or disaster. In emergency management 
terms--it is an ``all hazards'' approach to emergency management.
    At PEMA, we are pleased that we have been recognized over the past 
2 years by the Federal Emergency Management Agency (FEMA) Region III, 
as a leader in emergency management practices and community education. 
In addition, the Commonwealth of Pennsylvania recently underwent the 5-
year re-accreditation assessment by the Emergency Management 
Accreditation Program (EMAP) Commission. Based on reviews of its plans, 
procedures, and documentation, Pennsylvania was the 5th State to earn 
EMAP accreditation in 2003, and today, is only one of 23 States and 4 
jurisdictions to hold accreditation for its emergency management 
program capability. Just last month EMAP notified us that they approved 
Pennsylvania's re-certification for an additional 5 years. I bring the 
EMAP re-certification to the committee's attention because it was not a 
1-day snapshot of what we do, but an exhaustive review regarding how 
PEMA interacts on a regular basis with the Federal Government, other 
State agencies, counties, and municipalities.
    While PEMA's overarching approach to emergency management is an all 
hazards approach, we also focus on and address specific challenges that 
may arise in the Commonwealth. For example, with regards to the 
Marcellus Shale industry and emergency preparedness, PEMA has been 
engaged in the matter as far back as 2008. PEMA's Central, Eastern, and 
Western Area Offices have been involved in various activities regarding 
the process and assessing emergency management concerns. We have also 
been involved in tabletop exercises and roundtable meetings related to 
Marcellus Shale matters. County emergency management personnel and 
industry members have participated in those activities. PEMA's Bureau 
of 9-1-1 has been engaged in meetings regarding county 9-1-1 centers 
and addressing information on Marcellus Shale well sites. In addition, 
PEMA's most recent, regional Quarterly Training sessions for County 
Emergency Management Coordinators--which was held in two of the area 
regions before the Clearfield County blowout--included a presentation 
from the Lycoming County Natural Gas Task Force on Marcellus Shale 
matters. The purpose of all these activities is to assist our State, 
county, and local partners in their public safety planning and 
preparedness for Marcellus Shale-related emergencies that might arise. 
In short--PEMA has been engaged in Marcellus Shale matters and expects 
to be further engaged as the industry continues to grow in 
Pennsylvania.
    PEMA also is part of a Marcellus Shale working group comprised of a 
number of State agencies that include: the Pennsylvania Department of 
Environmental Protection (DEP), the Pennsylvania Department of Labor & 
Industry (L&I), the Pennsylvania Department of Transportation, the 
Pennsylvania State Police, and the Pennsylvania Department of 
Conservation and Natural Resources. The purpose of the working group is 
to meet on a regular basis and share information that relates to 
Marcellus Shale industry matters. With regards to other State agencies, 
the Office of the State Fire Commissioner is working with industry 
safety personnel in developing first responders' familiarization and 
training.
                 pema's course of action moving forward
    The Clearfield County blowout was the most significant Marcellus 
Shale emergency management incident to date in Pennsylvania. This 
incident could have been much worse. With any disaster or emergency in 
which the SEOC is activated, PEMA always does an after action review of 
the situation. We do this in order to assess what was done well and to 
identify areas that may need change or future attention. While we can 
be pleased that the incident was handled appropriately by State, 
county, local emergency management personnel and our first responders, 
there clearly are matters that need to be addressed.
    First, operators of natural gas wells must call the county 9-1-1 
immediately when there is an emergency situation. It is unacceptable 
that the operator of the well did not notify Clearfield County 9-1-1 
until almost 3 to 4 hours after the incident began. We are working with 
DEP, and offer to work directly with the industry, to ensure that 
operators comply with what all of us are taught: dial 9-1-1 when there 
is an emergency situation.
    Second, PEMA will ask the Marcellus Shale Coalition Safety 
Committee to continue to partner with us in our outreach to county and 
local emergency management personnel and our first responders. Beyond 
that, our hope is that, as DEP Secretary Hanger has said, the industry 
have a culture of ``safety first'' to minimize the number of incidents 
that may need an emergency response.
    Third, prior to the Clearfield County incident, PEMA had discussed 
holding a training session involving representatives from the Marcellus 
Shale Coalition and county emergency management coordinators. The 
purpose of the training would be to familiarize the coordinators with 
matters related to the Marcellus Shale industry. Therefore, at this 
year's State emergency management conference, we will have a session 
dedicated to Marcellus Shale gas drilling and emergency management 
issues.
    Fourth, PEMA will work with the Office of the State Fire 
Commissioner (OSFC) in marketing OSFC's Marcellus Shale training 
program for first responders. In March of this year, Fire Commissioner 
Ed Mann was attending a Marcellus Gas Training session hosted by the 
Lycoming County Emergency Management Office and the Marcellus Shale 
Coalition Safety Committee. Fire Commissioner Mann was approached by a 
representative from the Marcellus Shale Coalition Safety Committee 
about OSFC collaborating with the gas industry to develop training 
programs for first responders. Fire Commissioner Mann was very 
interested in creating a partnership with the gas industry on the 
matter. However, due to budget issues that were affecting State 
agencies, Fire Commissioner Mann told the gas industry that they would 
have to be willing to offset the cost associated with the development 
of the curriculum and the delivery of the training. The Marcellus Shale 
Coalition Safety Committee has agreed to provide funding for the 
training program. As it stands now, the program is being developed and 
the individuals who will teach the course will begin their training on 
August 10. Once those individuals have completed their training, OSFC 
is scheduled in September to offer the initial classes to first 
responders who wish to receive training program.
                           faster act of 2010
    I want to touch on a couple issues that relate to inspections and 
safety issues regarding Marcellus Shale gas wells. First, as you know, 
DEP is the lead agency in the Commonwealth regarding natural gas well 
drilling. On its Web site, DEP has excellent material about Marcellus 
Shale drilling. In particular, there is a Marcellus Shale Fact Sheet 
that discusses many of the complex issues regarding Marcellus Shale 
drilling in very understandable language. DEP and PEMA worked closely 
together on the Clearfield County incident and we will continue to try 
and get the industry to have improved lines of communication with 
State, county and local agencies for any future emergencies. Regarding 
the Faster Act, I would welcome the opportunity to work with you and 
your staff to meet one of the primary goals of your legislation--to 
ensure the citizens of the Commonwealth are protected from any 
emergency situations that arise in relation to Marcellus Shale 
drilling.
    Second, it is my understanding that DEP typically inspects a 
Marcellus Shale well site two to four times for environmental and 
drilling standards when a well is being developed. However, neither DEP 
nor L&I have jurisdiction for worker safety issues. It is my 
understanding that the U.S. Department of Labor, Occupational Safety 
and Health Administration (OSHA) has jurisdiction over these worker 
safety matters. I raise this issue because while it is critically 
important that emergency response systems are in place in the event of 
an accident, preventative actions are equally as important. You may 
want to have your staff discuss the Faster Act with DEP and L&I to get 
their thoughts on the legislation as it relates to worker safety issues 
and OSHA oversight for Marcellus well drilling sites.
    On behalf of Governor Rendell and the 12 million Pennsylvanians we 
serve, I again want to thank you Senator Casey and the members of the 
Senate Health, Education, Labor, and Pensions Committee for your 
continued support of PEMA and our partners in public safety in 
Pennsylvania and across the Nation. I would be happy to answer any 
questions you may have.

    Mr. Casey. Thank you very much.
    Professor Iannacchione.

  STATEMENT OF ANTHONY IANNACCHIONE, ASSOCIATE PROFESSOR AND 
    DIRECTOR OF THE MINE ENGINEERING PROGRAM, UNIVERSITY OF 
                   PITTSBURGH, PITTSBURGH, PA

    Mr. Iannacchione. Thank you, Senator, for asking me to 
participate in this field hearing. I hope that I can add 
something of value to this important discussion.
    Perhaps my thoughts can be summarized by saying 
implementing risk management protocols for the oil and gas 
industry should have a positive impact in reducing health, 
safety and environmental issues and should be encouraged.
    The United States is in the midst of developing one of its 
major unconventional gas resources, a major part of which is 
the Marcellus Shale contained within our region.
    It would be hard not to get excited about the prospects of 
developing a homegrown energy source that is located, produced 
and distributed completely inside the United States. It's also 
heartening to know that good paying jobs are being created and 
revenues from leases and taxes are refueling the citizens and 
Government alike.
    Through June 2010, the industry has drilled over 1,600 
Marcellus Shale wells in Pennsylvania. I think it's fair to 
characterize the unconventional gas industry in this region as 
largely growing. Marcellus Shale gas wells are very different 
from more conventional wells. They're deeper. They utilize huge 
hydraulic fracturing systems and employ sophisticated 
directional drilling technologies.
    Recently the safeguards needed to conduct these complex 
work practices have become a source of discussion, and calls 
for more standards and regulations are being suggested. The 
overriding question is this: Can our region's unconventional 
gas and shale resources be developed in a safe and 
environmentally acceptable fashion?
    The answers are difficult because risk associated with 
developing these reserves have not adequately been fully 
identified. Risk management methods have been successfully 
utilized by a number of different industrial, financial and 
governmental organizations but have not yet seen widespread use 
in this industry.
    Let's look at the coal mine industry as an example. In 
1910, when Congress created the U.S. Bureau of Mines, thousands 
of miners were dying every year in mine accidents. Over the 
last 100 years, regulations have been periodically improved 
upon, typically in response to major disasters.
    As a result of these regulations, new technologies have 
made their way into the workplace. In 1975, when I began my 
career, 155 miners were fatally injured in coal mining 
accidents. Last year the total number was 18. These regulations 
have been prescriptive in nature and often define best 
practices necessary to mitigate health and safety injuries.
    The mining industry is arguably one of the most regulated 
industries in the United States. Unfortunately, even in the 
midst of massive regulations and falling injury rates, the 
mining industry still struggles with periodic disasters. Sago, 
Crandall Canyon and now Big Branch cast a cloud over the 
effectiveness of Government's attempts to prescribe every safe 
action and every best practice.
    At some of the mines with the worst safety records, the 
operations focus primarily on minimal compliance with the law. 
They are in practice reacting to safety issues that have the 
potential to be found by mine inspectors. The necessary effort 
to thoroughly understand the hazards in their environments and 
to develop prevention controls and recovery measures that will 
mitigate inherent risk are left to the better operators.
    One has to ask the question: Why didn't any of the new 
standards enacted after the Sago disaster prevent a massive 
loss of life at the Upper Big Branch Mine?
    My fear is the prescriptive regulations lack the clear 
mandate to encourage operators to become more proactive, to 
work on leading practice, and go beyond the minimum standards 
identified in the regulations. As a result, operators who are 
only used to reacting to the threat of citations are ill-
prepared to develop more proactive approaches.
    My experience suggests that the best way to eliminate major 
hazards from the workplace is to perform rigorous risk 
management. This methodology has the advantage of encouraging 
the operator to consider and plan for unwanted events. It also 
produces new ideas to help to drive innovation in workplace 
safety and focus the operations to document its findings. These 
reports can be reviewed and used to develop leading safety 
practices.
    Adequate risk management plans also identify how the 
barriers in prevention controls put into practice are audited 
and who is responsible for making sure they are maintained. 
This is the way many of the best and safest companies already 
conduct their affairs. It is equally true that the unsafe 
companies are least likely to embrace these practices.
    So far, by facilitating operations to continuously manage 
their risk to a higher standard, we are encouraging proactive 
behavior. This would eliminate the need to have government 
through highly specific standards and regulations recognize 
every potential hazard and identify every appropriate response.
    The legacy of mining has the potential to help us develop 
an alternate strategy for dealing with the risk presented by 
Marcellus Shale drilling. After all, everybody is struggling 
with the same issue: What are the risks and can we mitigate 
them to acceptable levels? Thank you, Senator.
    [The prepared statement of Mr. Iannacchione follows:]
              Prepared Statement of Anthony Iannacchione *
                                summary
    The United States is in the midst of developing one of its major 
unconventional gas resources. In a report by the Congressional Research 
Service dated September 9, 2009, unconventional shale accounts for one-
third of the U.S. gas resource base, roughly 616 tcf. A major part of 
this resource is contained within the Marcellus Shale which underlies 
parts of Pennsylvania, New York, New Jersey, West Virginia, Maryland, 
and Ohio. Estimates of gas potential from the Marcellus Shale are 
significant, i.e. output from the Marcellus Shale is projected to fill 
the gas needs of the United States for 15 years. It would be hard not 
to get excited about the prospects of developing a ``home-grown'' 
energy source that is located, produced and distributed completely 
inside the United States. It's also heartening to know that good paying 
jobs are being created and revenues from leases and taxes are refueling 
the accounts of citizens and governments alike.
---------------------------------------------------------------------------
    * It is this author's opinion that implementing risk management 
protocols for the oil and gas industry could have a positive impact in 
reducing the health, safety and environmental issues and should be 
considered.
---------------------------------------------------------------------------
                      so how big is this industry?
    John Harper from the Pennsylvania Geological Survey, part of the 
Department of Conservation and Natural Resources, reports that over 
3,700 Marcellus Shale wells have been permitted since the Pennsylvania 
Department of Environmental Protection (PA DEP) started keeping count 
in 2008. The Pennsylvania Geological Survey also claims that 
approximately 450 Marcellus Shale wells have been formally completed, 
most within the last 2 years. Through June 2010, the industry has 
drilled a total of 1,681 Marcellus Shale wells. Drill sites dot many 
hillsides and hilltops in western Pennsylvania. It therefore seems 
reasonable to characterize the Marcellus gas production industry in 
this region as large, and growing.
     what is all the fuss about drilling into the marcellus shale?
    Oil and gas drilling have been occurring in Pennsylvania since the 
famous Drake Well of 1859. But these Marcellus Shale gas wells are very 
different from more conventional oil and gas wells found throughout the 
Commonwealth. One of the big differences is the scale and complexity of 
these operations. Developing a Marcellus Shale drill site, most of 
which are in sparsely populated areas, is a major undertaking. A high 
percentage of the drillholes use hydraulic fracturing techniques, known 
as fracing, to enhance the shale reservoir's ability to release the 
gas. This type of drilling requires huge pads, most as large as a 
football field. Periodically, large trucks will fill these pads, side-
by-side, delivering the fracing fluids, under high pressure, into the 
otherwise tight fractures of the shale. This causes the fractures to 
extend and open, ever so slightly. Once the fracing fluids are removed 
from the formation, these enhanced fracture pathways facilitate the 
movement of gas from the shale and into the production well. These 
drill pads also need a place to store up to several million gallons of 
frac water. The safe guards needed to conduct these complex work 
practices in a responsible fashion have become a source of discussion 
for more standards and regulations.
                how is the industry currently regulated?
    The drilling of oil and gas wells in Pennsylvania is regulated by 
several chapters of the Pennsylvania Code and various State acts. Oil 
and gas wells are permitted and inspected by the PA DEP's Bureau of Oil 
and Gas Management. In recent weeks, Secretary Hanger of the PA DEP, 
has introduced a number of new standards and is in the process of 
expanding the State's inspection capabilities to ensure regulatory 
compliance. At this point in time, the PA DEP seems well positioned to 
take on this responsibility. It is also clear that there doesn't appear 
to be a compelling need for the Federal Government to assume this role.
     how are we deciding what to do about marcellus shale drilling?
    Most large land owners have been approached with offers to lease 
the land for gas drilling. A recent article by Bill O'Driscoll (July 8, 
2010) cited the current deliberations the Carnegie Museum of Natural 
History is having concerning a potential lease agreement on its Powder 
Mill Reserve in Westmoreland County. In another high profile case, a 
company has proposed drilling within the city of Pittsburgh. The 
overriding question--can this resource be developed in a safe and 
environmentally acceptable fashion? The answers are difficult because 
risks associated with developing the Marcellus Shale gas reserves have 
not yet been fully identified.
                  why is it important to assess risk?
    This question can be analyzed by examining our experience with 
extracting another natural resource--coal. In 1910 when Congress 
created the U.S. Bureau of Mines, thousands of miners were dying every 
year in mining accidents. Over the years standards and regulations have 
been continuously developed and improved upon and new technologies have 
made their way into the work place. By 1975, when I began my career, 
155 miners were fatally injured in mining accidents. Last year the 
number was 18. The bottom line, both fatal and non-fatal injury rates 
have continuously dropped as the industry implemented new standards and 
regulations called for by periodic State and Federal mining health and 
safety legislation. These standards and regulations have been 
prescriptive in nature and often defined as the best practices 
necessary to mitigate health and safety injuries. The mining industry 
is arguably one of the most regulated industries in the United States. 
Unfortunately, even in the midst of massive regulations and falling 
injury rates, this industry still struggles with periodic disasters. 
Sago, Crandall Canyon and now Upper Big Branch have cast a cloud over 
the effectiveness of the Government's attempt to prescribe every safe 
action and every best practice. At some of the worst run mining 
operations, the operations focus solely on complying with the law. They 
are in practice, reacting to safety issues that have the potential to 
be found by mine inspectors. The necessary efforts to thoroughly 
understand the hazards in their environment and to develop controls and 
recovery measures that will mitigate the inherent risks in extracting 
minerals from the earth are often lacking.
    One has to ask the question, why didn't any of the new standards, 
enacted after the Sago disaster, prevent the massive loss of life at 
the Upper Big Branch Mine? My fear is that prescriptive regulations 
lack a clear mandate to encourage operators to become more proactive, 
to work on leading practices, to go beyond the minimum standards 
identified in the regulations. As a result, operators who are used to 
reacting to the threat of citations are ill-prepared to develop more 
proactive approaches. My experience suggests that the best way to 
eliminate major hazards from the work place is to perform adequate risk 
assessment/risk management processes.
 should we expect major hazards in marcellus shale drilling operations?
    Recently several high profile accidents have occurred at drilling 
sites in the northern Appalachian region. In one West Virginia 
accident, several workers were seriously injured when high pressure gas 
was not adequately controlled and an ignition occurred and a fire 
erupted. The ignition of explosive gas from a high pressure drillhole 
is an extremely dangerous occurrence that requires specialized training 
and equipment to safely mitigate. Other major hazards are associated 
with the special Marcellus Shale work processes discussed earlier. 
Certainly, major hazards are present.
                      how should risks be managed?
    Risks are best managed when the operator identifies any and all 
potential hazards associated with a particular work process. Once these 
hazards are identified, risk are evaluated based on their likelihood of 
occurrence and consequences. Hazards with the highest risk are 
identified and can become the operator's primary focus. Management is 
then challenged to identify an adequate set of barriers and/or 
prevention controls that can help to significantly reduce risks. All 
risk management plans must also consider the consequences to the 
operation if all the prevention controls fail to work and the hazard is 
released into the environment. It is clear that well thought out 
emergency response plans are needed.
    The risk management process has the advantage of encouraging the 
operator to consider and plan for the kind of unwanted events that we 
all hope don't occur at our work sites. It also produces new ideas that 
help to drive innovation in the work place and forces the operation to 
document its findings. These reports can be easily reviewed by 
knowledgeable persons. A good risk management plan also identifies how 
the barriers and controls put into practice are audited and who is 
responsible for making sure they are maintained. This is the way many 
of the best and safest companies already conduct their affairs and it 
is equally true that the unsafe companies are least likely to embrace 
these practices. So by encouraging operations to manage their risk to a 
known standard, we are encouraging proactive behavior (something good 
companies do already) and discouraging the reactive approaches of the 
``bad'' companies. This would eliminate the need to have government, 
through standards and regulations, recognize every potential hazard in 
the workplace and identify every appropriate response to these hazards.
    The legacy of mining has the potential to help us develop an 
alternate strategy for dealing with the risk presented by Marcellus 
Shale drilling. After all, everyone is struggling with the same issue--
What are the risks and can they be mitigated to acceptable levels?

    Senator Casey. Thank you very much.
    Mr. DeIullis.

 STATEMENT OF NICHOLAS DEIULLIS, PRESIDENT AND CHIEF OPERATING 
          OFFICER, CNX GAS CORPORATION, PITTSBURGH, PA

    Mr. DeIullis. Good morning. First, I'd like to thank the 
Senator and his team for giving CONSOL Energy the opportunity 
to testify this morning.
    We've got an issue now, through the prior years of 
collaborating on a number of issues across the manner of space, 
I think. They all go back to the deep affection we all share 
for the Commonwealth and for southwest Pennsylvania. So thank 
you.
    With regard to CONSOL Energy, I'd first like to spend a 
quick minute talking about our perspective on emergency 
response and why that might be unique within the industry. I 
think the uniqueness of that view comes down to three things.
    First is our legacy. We've been around for almost 150 years 
with regard to this region, and corporately at least, we're one 
of the founding fathers. Through 150 years, we've learned 
oftentimes in lay industries what to do and also what not to 
do. Sometimes it's just as important in life to know what not 
to do as it is what to do.
    The second reason our perspective may be unique is that 
when you look at the magnitude of what we're doing, no one 
extracts more coal east of the Mississippi in the United States 
than CONSOL Energy. No one produces more natural gas in the 
Appalachian basin which, of course, includes the Marcellus 
Shale, than CONSOL Energy. So the scope of what we're doing, 
we're a major player in Marcellus in that respect.
    I think the most important thing that makes our perspective 
unique is that what we do we do on an integrated basis. We're 
the only company, at least to my knowledge, that operates both 
coal mines and Marcellus rights, shallow wells, gas processing 
facilities, coal preparation plants and gathering lines.
    In looking at that across an integrated fashion, we see how 
things are inter-related with regard to issues like emergency 
response, and they are inter-related. So with that perspective, 
we're out front and some of the issues remain unique.
    What do we see with regard to emergency response? I think 
you can really categorize it into two main groups. The first 
are what I'll call philosophical, questions or issues that we 
could reach consensus on sooner rather than later before we get 
to the specifics of emergency response. The most important one 
there is: Is safety the top value with regards to the actual 
gas and Marcellus industries?
    At CONSOL Energy, safety is our top value, and I think it's 
safe to say it's our top priority. We're careful to say value 
because priorities can change over time. Our values won't 
change with regard to changing conditions. Safety is always 
going to be our top value, no matter what the environment is. 
When you look at that, it's easy perhaps to say that, but you 
need to look at the actions to make sure they're consistent 
with regard to what you're speaking.
    If you look at the amount of time their operations need to 
spend at CONSOL Energy on safety and compliance, it's an order 
of magnitude more than we spend on production and costs. When 
you look at tracking accidents, every single incident that 
occurs with regard to CONSOL Energy's use of inspection where 
absolutely zero accidents is the accepted benchmark for 
performance, and there's a fall line investigation, whether 
it's a cut pinky finger. The operations team is immediately 
notified with regard to email notification, and a follow-up 
investigation occurs within 24 hours in the vast majority of 
cases.
    Look at contractors. We have a lot of contractors in the 
Marcellus industry, which affects emergency response. We view 
contractors within our zone of accountability. Indeed perhaps 
we could look the other way with regard to contractors and 
service providers and just focus on our employees, but then we 
look at risk analysis and risk assessment. The contractor is in 
the same zone of risk and accountability as our employers are. 
So all of those things in terms of actions should help 
culminate in the view that safety is a top value within CONSOL 
Energy, but is that the case with regard to the entire 
industry? It needs to be. I'll also make the argument that the 
fact that we're the safest operator in the Marcellus, we 
haven't had a lost time accident within our employee base on 
our gas segment since 1994, and the fact that we're the most 
profitable gas producer in the United States, those two things 
are not coincidence. One goes with the other.
    If you're safe, you're going to be profitable. So I can say 
we're in employee and safety compliance. I can make the same 
argument that that's the same as looking at efficiency and 
profitability. They go hand in hand.
    Another philosophical point to consider, and it's very 
important to be focusing on emergency response and to do our 
homework up front, but we can't lose sight of emergency 
avoidance, and I look at that as being akin to something like 
fire safety.
    This building has sprinkler systems, and everyone is 
trained on what to do in the event of a fire. But the real 
issue, of course, our ultimate goal, is to avoid fire to begin 
with. I think it's important to keep going back to that 
ultimate objective while looking at emergency response to look 
at ways of avoiding the crisis of emergency all together, 
because, again, from our perspective, to operate within this 
industry without any accidents or any major crises or 
emergencies is not an unachievable goal. We've been doing it, 
in our case on the gas segments, since 1994.
    The third philosophical point to consider is a lot of 
regulation, a lot of rules of the road and processes and 
procedures within the energy industry historically have focused 
on what I'll call stick of enforcement. If you can't or you 
won't comply with the rules of the road and standards that you 
accepted to operate within, here are the ramifications, and we 
need those. Certainly any industry with regard to a number of 
large players and various players would want to see those 
guidelines in place.
    But we also need to focus with regard to emergency response 
on what I'll call the carrot of regulation and rules of the 
road. If a company is furthering the state-of-the-art and is 
furthering best in class, how do we reward those and 
incentivize these to continue doing so. So those are sort of 
the philosophical thoughts that are out there.
    On the specifics, beyond philosophy, training is terribly 
important. It's not just training for employees. Training for 
first responders, as Mr. French brought up. You're also 
training the contractors. We need to see more of these jobs in 
this industry filled by people from this region, live within 
this region, that improves emergency response for the long-
term, and are more familiar with the rules of the road and the 
lay of the land.
    So, short term, sure, if those jobs aren't readily 
available locally, that's one thing. But longer term we need to 
get those posts slotted with local talent, homegrown 
development, no pun intended.
    Then the last issue, of course, is probably the most 
important. Sounds basic, but communication is key. It's one 
thing to be able to have everybody on the same page at the time 
when a crisis occurs, from first responders to employees to 
contractors, but the last thing you want to see in a crisis is 
everybody spending valuable time when time is of the essence 
trying to get on the same page with the same sheet of music.
    So, find ways to improve that communication at work. If 
I've got a drill rig operating in Greene County, all those 
municipalities know what the game plan is, where we are, and 
vice versa. So those are the thoughts we're proud to offer up 
this morning.
    I want to again thank the Senator and his team for giving 
us the opportunity to speak. Thank you.
    [The prepared statement of Mr. DeIullis follows:]
                Prepared Statement of Nicholas DeIullis
    Good morning. I am Nick DeIuliis, EVP & COO for CONSOL Energy, and 
I appreciate the opportunity to address this hearing on emergency 
response in the Marcellus Shale region. Special thanks to Senator Bob 
Casey for inviting CONSOL Energy to participate.
    As the COO of one of the Nation's leading gas and coal producers, I 
witness, firsthand, the importance our company places on the safe and 
environmentally sound operation of all of our business units.
    Those operations include 11 bituminous coal mining complexes in six 
States with coal reserves of 4.5 billion tons. We are also the leading 
Appalachian gas producer, with proved reserves of 2.9 trillion cubic 
feet.
    At CONSOL Energy, I can say, with confidence, that our primary and 
significant emphasis remains the health and safety of each of our more 
than 8,500 employees, nationwide.
    And our employees are responding. Throughout all of CONSOL, and 
across all business units and job duties, our corporate commitment to 
encourage employees to work safely on the job and off is paying 
dividends in very important ways.
    Not only are we maintaining safe operations, but we are also being 
productive. Our value system leads to the belief that a safe operation 
is also a productive one.
    That if you perform adequate risk analysis while designing and 
constructing the operations, add to it the proper equipment and 
training, then follow that up with attention to the human element by 
empowering employees and instilling into them that safety is a personal 
value, then our goal of eliminating all accidents and maintaining an 
Absolute ZERO mentality will be achieved and maintained.
    We don't run away from our responsibility to operate our energy 
operations safely and in compliance with the regulations, we embrace 
it.
    We continually reinforce to our employees, on a daily basis, of the 
need to be safe, both on the job and at home.
    At CONSOL Energy, we earnestly believe that eliminating every 
injury or accident in the workplace is achievable. In fact, many of our 
operations have proven it, consistently.
    Of special interest to this forum, our gas operations recently 
earned more than 4 million hours without a lost-time accident. They are 
also on target to achieving our company standard of Absolute ZERO, the 
elimination of all accidents and injuries on a consistent basis.
    Closely behind safety and equally important is the issue of 
compliance with the regulations that monitor and govern our industries, 
whether on the gas side, or the coal side, or any of the non-extractive 
units within CONSOL.
    This overall framework of adherence to safety and compliance 
animates everything that CONSOL Energy does at its gas and mining 
operations.
    This broad-based and total commitment to safety and compliance 
means that CONSOL Energy would never jeopardize our employees or 
contractors by exposing them unnecessarily and carelessly to equipment 
or operations that are unsafe or harmful to their well being.
    Among our employee population, you will find highly skilled 
engineers and specialists, alongside certified and trained EMTs, 
experts in safety and training, and knowledgeable and effective 
managers all collaborating to ensure the safe and efficient operation 
of our gas and coal sites.
    Second, we provide extensive and on-going training for our 
employees to ensure they are performing their job duties safely and 
with strict adherence to best practices and applicable operational and 
environmental regulations.
    This training helps to ensure that our employees will react swiftly 
and effectively to any incident that may occur at our gas drilling 
sites or any of our other operations, whether it be fire-fighting or 
blow-out prevention.
    As a part of this effort, we instruct our operations managers and 
employees that the best remedy to any emergency situation is 
prevention. That with adequate and effective prevention planning, we 
can increase our chances of avoiding any emergency situation at our 
operations.
    We also require that our contract drillers complete BOP, or Blow-
Out Prevention Training before they are allowed to perform work at our 
gas sites.
    In addition, CONSOL Energy maintains a centralized communications 
center that monitors all company operations and acts as an emergency 
response outlet to quickly alert corporate and local responders to any 
incident involving our active sites.
    Such emergency prevention and preparedness has been a part of our 
corporate culture for decades, and is applied across all of our 
business units.
    Finally, we expect the same dedication to safety and compliance 
from our vendors and contractors that we use to assist with everything 
from Marcellus Shale well drilling to long-wall coal mining to 
purchasing office supplies. If they do not adhere to the same standards 
for safety and compliance as our own employees do, they don't do work 
for CONSOL Energy.
    Before any such outside contractor begins any activity on any 
CONSOL property, they must adhere to our standards and are required to 
complete a rigorous training and performance program.
    It is understandable that given recent incidents at nearby 
Marcellus drilling sites, and against the backdrop of the BP oil spill 
in the Gulf, that greater attention has been focused on our industry 
and its operations.
    However, we strongly believe that through the use of advanced 
drilling technologies and preventative and fail-safe systems currently 
being employed by CONSOL Energy will ensure that this valuable resource 
and the associated job growth and positive economic impact can continue 
to move forward safely and without harm to humans or the environment.
    Thank you.

    Senator Casey. Thank you very much.
    Ms. Chappel, Good morning.

 STATEMENT OF JUNE CHAPPEL, LOCAL RESIDENT, HOPEWELL TOWNSHIP, 
                     WASHINGTON COUNTY, PA

    Ms. Chappel. My name is June Chappel. I live in Hopewell 
Township in Washington County located about 10 minutes 
northeast of Washington, PA. In 2007 there was 118 acres of 
property surrounding my home that was sold by a coal company to 
a gas drilling company. Seven Marcellus gas wells were drilled 
right next to my home, within 800 feet of my house.
    A 15 million-gallon wastewater impoundment was placed 
approximately 200 feet directly behind my home. The waste water 
impoundment that smells like gasoline and kerosene when the 
wind blows across the impoundment blows right into my back 
yard. I tell people that the wastewater impoundment is bigger 
than a football field.
    The location had been a mix of woods and field prior to the 
gas company's purchase of the land. The gas company had a 
logger come in and clear the woods around us.
    When they drilled the wells, my house vibrated 24 hours a 
day, 7 days a week. It was pretty horrific. When the drilling 
was done, the gas company began fracing up the wells. This was 
a 9-day heart-pounding noise. That is what I called it. With 
all the compressors that were over there, it was constant, 24 
hours a day for 9 days.
    In early September 2009, when the gas company was done with 
the fracing, the flaring started. Close to the wastewater 
impoundment the gas company placed a large blue pipe that was 
used for the flaring after the wells were fraced approximately 
500 feet from my from my home.
    We had to go out at 4 a.m. to rescue my beagles due to the 
extreme noise and heat. We found my dogs out in their dog boxes 
cowering, very frightened. We put up with the noise for 3 days. 
After I returned from Wal-Mart one day--I had just had to get 
away from the noise--I found the local fire department at this 
site. The local fire department was not even our local fire 
department that should have been in my area. The fire 
department that would normally cover a fire in my area is West 
Middletown Volunteer Fire Department located about 8 minutes 
away.
    The fire department on scene was Canton Township Volunteer 
Fire Department located about 20 minutes away. At the time I 
did not even think about why Canton was at the scene, not our 
fire department. The fire department had a truck down at the 
flares spraying the big blue pipe. I could see the liner of the 
wastewater impoundment with little fires across the top of the 
impoundment and around the corner of it. Each smaller fire was 
low to the ground right above the wastewater impoundment liner.
    The extent of the fire on the liner was not truly realized 
until days after the gas company replaced a very large section 
of the liner that was burned in the fire, which can be seen in 
my photos. The fire department with their one unit stayed there 
the remainder of the time during the flaring. But even with 
this presence, we felt very fearful for our lives.
    The fire department was a local volunteer fire department, 
and we did not even know if they had proper training to deal 
with such a fire, let alone whatever chemicals that were in 
this impoundment. I was really scared.
    My son and I went running down to this impoundment to see 
what was going on, and one of the guys with a white hat, I 
asked him, ``What is going on?'' He said, ``Well, we're trying 
to cool down the big blue pipe.'' I thought I was going to have 
a heart attack right there.
    Neither the fire department nor the drilling company ever 
came to our house to warn us of the fire. No evacuation was 
issued. I did turn this situation in to the DEP, but nobody 
believed me that there was a fire. The DEP was not aware that 
there was a fire. The gas company claimed there was never any 
danger and that there was not a fire, but my pictures speak 
otherwise.
    Not until I showed the man from DEP my pictures did he 
believe me. A fire department was involved, and not even our 
fire department. We never saw a police presence, let alone 
OSHA, the DEP, or any other type of emergency personnel such as 
EMTs. Evidently, 911 was never called by the gas company to 
notify the fire department of the danger. If 911 had been 
called, the DEP would have been notified of the fires. As I 
mentioned, the DEP was not aware of the fire.
    I had found out later from one of the workers that they 
were using a big 8-inch pipe on this flare opening all seven 
wells at once. I was told usually they use a 2-inch pipe. This 
could have ended in disaster. I was told by someone in the 
company that they're learning as they go, and my response to 
them was, ``Unfortunately, at my expense.''
    It was really tremendous, this noise and heat from this 
thing. When it was lit, it sounded like a 747 was inside my 
home. We lost days of sleep. It is important to point out all 
of this was going on soon after.
    Senator Casey. It's OK.
    Ms. Chappel [continuing]. My husband, Dave, was diagnosed 
with cancer. Not only did my son and I have to deal with living 
through this, but we were also trying to attempt to support my 
husband through his illness. Through all of his illness, there 
was never any compassion from this company. We were never 
informed of anything going on around us.
    We were never informed of the dangers. The only thing they 
ever offered us was to be displaced from our home and go to a 
motel during this fracing and flaring. All my husband wanted to 
do was live his final days in peace at our home.
    By the third day of this flaring, I was about beside 
myself. I went down to their corporate office and tried to get 
this thing shut off. My husband asked me, ``Where are you 
going?'' I said, ``Out.'' But he knew where I was going. At the 
corporate office I told them I was going to charge them by the 
hour for every hour of hell they're putting my family through.
    This man I was talking to said he would be up to the house 
in an hour. I told him, ``You just remember when you're on your 
way home, I have to live here.''
    When I arrived home, my husband asked me if I was nice, and 
I said, ``Well, I tried to be.'' Within an hour of leaving the 
corporate office, the guy from the gas company arrived, and 
within 2 hours, the flaring had been shut off, and I was 
thrilled just to have normal sound and not have to have this 
horrific noise.
    The one thing I found out later was how dangerous this was 
and the chemicals in the wastewater impoundment. The entire 
impoundment, the surface of the water and all could have caught 
on fire. The only protection I had was the local fire 
department hosing down the flaring pipe. After the fracing and 
still to this day, I have hissing and rattling sounds in my 
ears. It sounds like I'm in a pit of rattlesnakes. I told them 
the day I went to the corporate office that the noise was 
rattling my windows and my doors. Even though we did not have 
air conditioning, we had to keep our windows and doors shut. It 
was terrible.
    Despite the fire and the melting of the impoundment liner, 
the gas company patched the burned sections. The wastewater 
impoundment and all the noxious smells remained in my back yard 
until late spring. A representative from the gas company came 
to my house and said they were finally going to get rid of the 
impoundment. I asked him why. He said, ``Because it is the 
right thing to do.''
    He did not mention that I had hired an attorney and that it 
was too much bad publicity because I already made media. A 
couple times we've had numerous people come to my property to 
see the hell my family has been through.
    This situation was only made worse by the fact that the gas 
company never contacted us warning us of flaring dangers that 
were involved. Once the situation became out of control, 
neither the gas company nor the fire department thought it was 
necessary to evacuate both my family and all the other families 
around us.
    We even wondered if the fire department had any clue to 
truly know how dangerous this situation had become when dealing 
with the flare pipe, let alone the chemicals in the wastewater 
impoundment.
    The good news about this is the wastewater impoundment is 
being filled in now, and it is bittersweet. On February 26, 
2010 my husband, Dave, died, and I know he would be really 
proud of me. Thank you.
    [The prepared statement of Ms. Chappel follows:]
                   Prepared Statement of June Chappel
    My name is June Chappel. I live in Hopewell Township in Washington 
County, Pennsylvania, located about 10 minutes northeast of Washington, 
PA. In 2007, the 118 acres of property surrounding my home was sold by 
a coal company to a gas drilling company. Seven horizontal gas wells 
were drilled to the right of my home within 800 feet from my house. A 
15 million gallon wastewater impoundment was placed approximately 200 
feet directly behind my house.
    The wastewater impoundment smells like gasoline and kerosene, and 
the wind blows across the impoundment right into my back yard. I tell 
people that the wastewater impoundment is bigger than a football field. 
The location had been a mix of woods and field prior to the gas 
company's purchase of the land. The gas company had a logger come in 
and clear the woods around us.
    When they drilled the wells, my house vibrated 24 hours a day 7 
days a week, it was pretty horrific. When the drilling was done, the 
gas company began the fracing of the wells. This was 9 days of heart 
pounding noise. That is what I called it, with all the compressors that 
were over there, it was constant 24 hours a day for 9 days.
    In early September 2009, when the gas company was done with the 
fracing, the flaring started. Close to the wastewater impoundment, the 
gas company placed a large blue pipe that was to be used for the 
flaring after the wells were fraced, located approximately 500 feet 
from my house.
    We had to go out at 4 a.m. and rescue our beagles due to the 
extreme noise and heat. We found my dogs out there cowering in their 
dog boxes. We put up with this noise for 3 days. After I returned home 
from Wal-Mart, I just had to get away from this for a while; I found a 
``local volunteer'' fire department at the site. The local fire 
department was ``not'' even our local fire department that should be in 
my area! The fire department that would normally cover a fire in my 
area is West Middletown Volunteer Fire Department, located about 8 
minutes away. The fire department on scene was Canton Twp Volunteer 
Fire Department, located about 20 minutes away. At the time, I did not 
even think about why Canton was at the scene and not our fire 
department.
    The fire department had a truck down at the flare, spraying the 
blue flare pipe. I could see the liner of the wastewater impoundment 
with little fires across the top of the impoundment and around the 
corner of it. Each smaller fire was low to the ground, right above the 
wastewater impoundment liner. The extent of the fire on the liner was 
not truly realized until days later when the gas company replaced a 
very large section of liner that had burnt in the fire, which can be 
seen in my photos.
    The fire department with their one unit stayed there the remainder 
of the time during the flaring. But even with this presence, we felt 
very fearful of our lives. The fire department was a local volunteer 
department and we did not even know if they had the proper training to 
deal with such a fire, let alone whatever the chemicals that were in 
the impoundment.
    I was really scared. My son and I went running down there to see 
what was going on. I get one of these guys with a white hat and I asked 
him what was going on, he said that they were trying to cool down the 
blue flare pipe. I thought I was going to have a heart attack right 
there. Neither the fire department nor the drilling company ever came 
to our house to warn us of the fire. ``No evacuation was issued.''
    I did turn in this situation to the Pennsylvania DEP, but nobody 
believed me that there was a fire. The DEP was not aware that there was 
even a fire. The gas company claimed there was never any danger and 
there was not a fire, but my pictures speak otherwise. Not until I 
showed the man from the DEP my pictures, did they believe me. A fire 
department was involved, but not even our department. We never saw a 
police presence, let alone OSHA, the DEP, or another type of emergency 
personnel such as EMTs.
    Evidently, 911 was never called by the gas company to notify the 
fire department of the danger. If 911 had been called, the DEP would 
have been notified of the fires. As I mentioned, the DEP was not aware 
of the fire.
    I found out later from one of the workers that they were using an 
8-inch pipe on this flare, opening all seven wells at once to flare. I 
was told they usually only use a 2-inch pipe to flare. This almost 
ended in disaster. I was told by someone in the company that they were 
``learning as they go.'' My response to them was, Unfortunately at my 
expense. It was really tremendous, this noise and the heat from this 
thing. When it was lit, it sounded like a 747 jet within my home. We 
lost days of sleep.
    It is important to point out that all this was going on soon after 
my husband Dave was diagnosed and dying of kidney cancer. Not only did 
my son and I have to deal with living through this, but we were 
attempting to support my husband through his illness. Through all of 
his illness, there was never any compassion from the company. We were 
never informed of anything going on around us. We were never informed 
of the dangers. The only thing they ever offered was for us to be 
``displaced'' from our home and go to a motel during the drilling, 
fracing, and flaring. All my husband wanted was to live his final days 
in peace at home, not in a motel!
    By the third day I was beside myself, I went down to the corporate 
office to try to get this shut off. My husband asked where I was going, 
I told him, Out, but he knew where I was going. At the corporate 
office, I told them I was going to charge them by the hour for every 
hour they put my family through this hell. The man I was talking to 
said he would be up to the house in an hour. I said to him, Just 
remember on your way home from my place, I have to live there. When I 
arrive home, my husband asked if I was nice, I said, I tried to be.
    Within 1 hour of leaving the corporate offices, the guy from the 
gas company arrived. Within 2 hours, they had the flare shut off. I was 
thrilled, just to have a normal country sound.
    One thing I found out later was how dangerous this fire was with 
the chemicals in the wastewater impoundment. The entire impoundment, 
the surface of the water and all, could have caught on fire. The only 
protection I had was a ``local volunteer'' fire department hosing down 
a flare pipe.
    After the fracing and still to this day I have this hissing and 
rattling sound in my ears, it sounds like I am in a pit of 
rattlesnakes. I told them the day I went to the corporate office that 
the noise was rattling my windows and doors. Even though we did not 
have air conditioning, we had to keep our windows and doors shut. It 
was terrible.
    Despite the fire and the melting of the impoundment liner, the gas 
company ``patched'' the burnt sections. The wastewater impoundment and 
all its noxious smells remained in my back yard until late spring. A 
representative from the gas company came to my house and said that they 
were finally going to get rid of the impoundment. I asked why, he said 
``it was the right thing to do.'' He did not mention that I had hired 
an attorney and that there was too much bad publicity, because I had 
already made the media a couple of times and have had numerous people 
up to my property to see the hell my family was living through. This 
situation was only made worse by the fact that the gas company never 
contacted us, warning us about the flaring and the dangers that were 
involved. Once the situation became out of control, neither the gas 
company nor the fire department thought it necessary to evacuate both 
my family and all the other families around us. We even wondered if the 
fire department had any clue as to how truly dangerous the situation 
had become when dealing with the flare pipe, let alone the chemicals in 
a wastewater impoundment.
    The good news about the wastewater impoundment being filled in was 
bitter sweet. On February 26, 2010, my husband Dave died. I know he 
would have been proud of me.

    Senator Casey. Thank you for your testimony. It's always 
difficult to give testimony on a subject that's part of your 
daily life. It's ever more so difficult when you have your own 
tragedy. We're grateful you're willing to be here with us. 
Thank you.
    Finally, our last witness, Mr. Tijerina.

 STATEMENT OF RALPH TIJERINA, CSP, CHAIRMAN, SAFETY COMMITTEE, 
   PENNSYLVANIA INDEPENDENT OIL AND GAS ASSOCIATION; HEALTH, 
SAFETY AND ENVIRONMENTAL DIRECTOR, RANGE RESOURCES, CANONSBURG, 
                               PA

    Mr. Tijerina. Good morning, Senator Casey, members of the 
HELP Committee. Thank you for the opportunity to testify today.
    I am the director of health, safety, security and 
environmental for Range Resources Appalachia. As stated above, 
I'm also co-chair of the Joint PIOGA, Pennsylvania Independent 
Oil and Gas Association, and the Marcellus Shale Coalition 
Safety Committee. I have approximately 32 years of experience, 
with the last 3 years in Pennsylvania.
    Since 2008 I've been involved in training the first 
responders in the Commonwealth to help them understand 
potential dangers and hazards that exist on various stages of 
natural gas extractions.
    I believe that first responders must be aware of the 
environment they're responding to so as to not cause harm to 
themselves or others. Range Resources has worked with the 
Lycoming County Gas Task Force to conduct mock emergency drills 
for first responders so they could identify areas of 
improvement and at the same time conduct a needs assessment.
    There were over 120 participants and various agencies that 
were represented. We are currently working with the 
Pennsylvania State Fire Commissioner and the State Academy to 
develop a number of training modules for various departments in 
emergency response. The Joint PIOGA Marcellus Shale Coalition 
Safety Committee is made up of industry representatives, 
meaning operators, the service companies that provide the work 
in most locations, various consultants within Governmental 
agencies, such as OSHA, the DEP and Lycoming Department of 
Public Safety.
    The members of the safety committee are broken down further 
into different disciplines to address areas more specific, such 
as crisis management, drilling completions, production, and a 
number of others. From a safety perspective, the subjects of 
the committee are in direct relationship to our industry and 
how they apply, fire protection, signage on wells, 
Pennsylvania's PPC plans, which stands for preparedness, 
prevention and contingency, fire resistant/retardant clothing, 
just to name a few.
    According to a report by the American Petroleum Industry 
entitled Economic Impact, Marcellus Shale: Implications for New 
York, Pennsylvania and West Virginia, the economic impact for 
the Marcellus could be up to $25 billion by 2020 and could 
create up to 283,000 jobs.
    I will make myself available to answer any questions that 
the committee wishes within the natural gas drilling operations 
and Marcellus to the best of my ability. Some other comments 
that I would like to add are things that have been done with 
the industry.
    In 2008 industry worked with OSHA to develop an oil and gas 
training program where a number of their inspectors were 
brought in, and industry brought in equipment and personnel to 
speak with them about the hazards and the components of the 
operations just to make their inspectors more familiar with 
what we have so that we could work together to develop a safe 
working environment.
    Recently, within the last 2 weeks, PIOGA has also signed an 
alliance with OSHA so that we could work together and develop 
these programs and establish the training required.
    One of the other things that industry is doing with OSHA is 
developing a 10-hour and 30-hour training course that is 
predominantly for the oil and gas industry. This work is 
currently being done through West Virginia University in 
conjunction with OSHA's Charleston's office.
    There are other programs out there, such as Safe Land and 
IADC Rig Safety that a number of different operators are 
utilizing in order to ensure that we have a safe workforce that 
understands our industry and requirements of the industry.
    One of the first things that we had identified through the 
Lycoming First Responder Training was that when somebody was to 
respond on one of these sites, that there was a possibility 
they would respond to possibly construction or production or a 
drilling rig. You can't make the assumption that all of a 
sudden when you show up, there's going to be a big drilling rig 
there.
    So one of the reasons that we held this drill was to orient 
all the first responders with regard to what they could be 
coming across when they come out to a location. This was very 
informative.
    We had a number of people come in, including trauma 
specialists from a Philadelphia Hospital to help us assess 
different situations. This gave us a lot of lessons learned and 
also helped identify needs analysis, because one of the things 
that we did identify was that a number of first responders had 
not been exposed to our type of industry, and, therefore, there 
would be an effort that industry would need to make to bring 
them up to speed to understand exactly their role and our 
expectation with regard to emergency on site.
    Other things that have come out of some of this programming 
or these discussions that we've had have been the 911 
addressing. We feel that because most of our locations are in 
very remote areas, first responders along with industry needs 
to have a way for them to get there as soon as possible.
    We've also established a protocol where flare notifications 
are conducted. Therefore, whenever flares are started, we 
contact the local 911 public safety officials and notify them 
so that they're aware of it. Once the flare is completed, we 
notify them it's completed as well.
    During pipeline blowdown, whenever we're pressure testing 
lines, the protocol is for us to contact the Public Safety 
Department as well and notify them of it, because one of the 
concerns that we have is when a situation like this does occur 
and they're releasing the nitrogen, which is inert gas, after 
the pressure test, it may sound like gas leaking out of the 
line. Therefore, it's more of a precautionary measure.
    The other thing that we looked at is also the 911 
addressing of impoundments, because the addresses to the well 
sites may not necessarily be the address to the impoundment in 
the event a situation ever occurred.
    Thus far we have provided over 60 presentations to over 
1,500 first responders throughout the Commonwealth and in West 
Virginia. In order to identify means to communicate to more 
first responders in a more timely manner, we've approached the 
State Fire Commissioner and asked him if there was a way that 
we could work together to try to develop some training so that 
this information can be dispersed in a more timely manner. We 
are currently working on that with our first force scheduled to 
be on August 10 of this year, which if you're available and 
wish to attend, we'd be more than happy to have you. But the 
plan is to train the trainers who can then go out to the 
different areas upon request and provide the training to the 
first responders.
    Some of the things that we have asked with regard to 
operations is to develop protocols so that whenever we do have 
an activity occurring, that an emergency response plan is 
identified and on site. One of the things that we try to do is 
communicate to everyone so that if a situation does occur, then 
everyone understands what the plan would actually be.
    In some cases we have actually worked with the township 
supervisors to coordinate the activity. We have worked with the 
local schools to schedule their buses or identify when they're 
coming through so as not to block traffic or impede the 
vehicles getting through there.
    We have also worked with public safety and have had 
volunteer fire departments actually sit on our locations just 
to be there as a precautionary measure. We've also had EMTs and 
such as well.
    Different variations of well site emergencies can be 
physical injuries, equipment damages or even near misses. One 
of the things that we try to do is ensure that everybody does 
what they need to do to prevent an incident from even 
occurring. And with that, two main things that contribute are 
going to be either what you would call property damage where 
you have an unsafe environment, or somebody conducting an 
unsafe act.
    We train our personnel to understand that shortcuts are not 
acceptable. There are procedures and things we have. Job safety 
analysis are conducted. Risk assessments are developed. Hazards 
are identified. People are trained. Then we minimize the 
potential for any tragedy occurring.
    Some of the information with respect to well control 
specialists, they are worldwide with the three primary 
companies in the United States, there are 60 listed well 
control specialists that actually are dispatched to handle well 
control, like I said, on a worldwide basis.
    These are very specialized people. When they do respond, 
they have specialized equipment along with engineering 
backgrounds and such, because it's not just a matter of putting 
the well out at the surface. You have to consider everything 
that's going on below the well also.
    So if you have any questions, I'll be more than happy to 
answer them.
    [The prepared statement of Mr. Tijerina follows:]
               Prepared Statement of Ralph Tijerina, CSP
    Good morning, Senator Casey and members of the HELP Committee. 
Thank you for the opportunity to testify today. My name is Ralph 
Tijerina and I am the director of Health, Safety, Security and 
Environmental for Range Resources Appalachia, LLC and as stated above, 
I am the co-chair for the Joint MSC/PIOGA (Marcellus Shale Coalition/
Pennsylvania Independent Oil & Gas Association) Safety Committee. I 
have approximately 32 years of industry experience with the last 3 
years being in Pennsylvania this September. Since 2008, I have been 
involved in training of First Responders in Pennsylvania to help them 
understand the potential hazards that exist on various stages of 
Natural Gas extraction. I believe that First Responders must be aware 
of the environment they are responding to so as not to cause harm to 
themselves. Range Resources Appalachia, LLC had worked with the 
Lycoming County Gas Task Force (Pennsylvania) to conduct a mock 
emergency drill for First Responders to identify areas of improvement 
and conduct a needs assessment. There were over 120 participants and 
various agencies were represented. We are currently working with the 
Pennsylvania State Fire Commissioner and the Pennsylvania State Fire 
Academy to develop a number of training modules for various departments 
of emergency response.
    The Joint PIOGA/MSC Safety Committee is made up of industry 
representatives (operators), service companies, consultants, and 
governmental agency representatives such as Occupational Safety and 
Health Administration, Pennsylvania Department of Environmental 
Protection, and the Lycoming County Department of Public Safety. The 
members of the Safety Committee are broken down further into 
disciplines to address areas more specific to the classification such 
as Crisis Management, Drilling, Completions, etc. From a safety 
perspective, subjects of the committee are in direct relationship to 
our industry and how they apply. Fall Protection, Signage on well 
sites, Pennsylvania PPC Plans (Preparedness, Prevention and Contingency 
Plans), Fire Resistant/Retardant Clothing to name a few.
    According to a report to the American Petroleum Institute, titled 
``The Economic Impacts of the Marcellus Shale: Implications for New 
York, Pennsylvania, and West Virginia,'' the economic impact of the 
Marcellus Shale could be up to $25 billion by 2020 and create 283,000 
badly needed jobs.
    I will make myself available to answer any questions that the 
committee wishes to address within the Natural Gas drilling operations 
in the Marcellus Shale to the best of my ability.

    Senator Casey. Thank you very much. I want to thank all of 
our witnesses for your testimony.
    First thing I want to do is to highlight a few things for 
the record, a few news items and pertinent parts of recent news 
stories. We've had in the last couple of days a number of 
stories in many newspapers about what happened in Indiana 
Township, and we all share the sense of loss and extend our 
condolences to the families of the lost two workers.
    We've also seen a lot of news that's related to what 
happened in Clearfield County. I was looking at a story from 
last week, among many, but just one about the report that was 
done on the Clearfield blowout where the State had an 
investigation done and then imposed a fine of $400,000 in the 
aftermath of that investigation.
    I'm reading just a couple of pertinent parts here. One is 
that Secretary Hanger said the following, ``That EOG,'' the 
company involved, ``had employed only one mechanism to keep the 
high pressure gas well under control, and that measure had 
failed at the hands of employees who are not certified in well 
control techniques.''
    Later the story goes on to cite what the expert said who 
was retained to complete the report. He said, ``I don't know 
any company that would cut corners like this on this kind of 
well.''
    Secretary Hanger noted that in the Clearfield incident, 
there were no injuries, thank goodness, and no deaths. The well 
did not ignite, and the site has been cleaned up. That's good 
news.
    He noted there were 35,000 gallons of wastewater that DEP 
says gushed from the well which contaminated the nearby site. 
But he went on to say there was no permanent damage. So that's 
good news.
    Unfortunately, in the incident from last week, among other 
things, it was--I'm reading here from a Pittsburgh Post-Gazette 
story just yesterday, Sunday, July 25. It notes at the end of 
the article--the title of the article for the record is ``Well 
Blast Prompts Call for Stricter Regs.'' That's the title of the 
article.
    Toward the end, it said, and I'm quoting from what the 
writer said,

          ``There appear to be few provisions for emergencies 
        like Friday's incident, although drilling companies are 
        required to post bonds and notify the DEP within 24 
        hours of any emergency. No regulation presently 
        requires a drilling company to make arrangements to 
        have experts like those who work for, in this case, the 
        Wild Well Control Company available within 
        Pennsylvania. In Pennsylvania this year, 3,345 well 
        permits have been approved.''

    And it goes on from there.
    I guess one of the main questions I have--I'll start with 
Mr. French--we heard a moment ago Mr. Tijerina talk about the 
work that's been done in Lycoming County. I wanted to know from 
you whether or not the Lycoming County Natural Gas Task Force--
A, let me have you assess that to the extent you know about 
that task force, and, B, what can we learn from that or take 
from that as a model or at least an example that we hope to 
replicate?
    Mr. French. Senator, the work that's being done by the task 
force in Lycoming County is, in fact, terrific work. In fact, 
it's a model we have been using to train others throughout the 
Commonwealth. What we've done is taken their experiences, their 
lessons learned, and we have then, been training in our area 
offices.
    I mean by that that we do training quarterly for all county 
emergency managers to familiarize them with what the hazards 
are, what they can expect, so that when it comes to a response, 
they are going in with their eyes more open.
    So we have been doing that work using the task force 
partially as a model. We've also been working with the safety 
task force and PIOGA to develop additional training for our 
emergency management personnel, and from those two instances, 
we are better providing the picture for what a first responder 
needs to contend with.
    As was mentioned a bit earlier and I think it is relevant, 
it's not unique to the Marcellus Shale wells. First responders 
need to know what to do and in some cases what not to do based 
upon the chemical or the type of materials that they will 
encounter. Knowing that up front and knowing that when they get 
to the site enables them to make better decisions and the right 
decision.
    Senator Casey. Tell me specifically, because we want to do 
everything we can to provide very specific guidance here, not 
only obviously for legislation, but also for those who are 
currently involved in this kind of work. We want to make sure 
that we have changes that can be made even without legislation, 
but obviously legislation is part of that, but that takes time. 
We don't want to have a gap while you're trying to pass 
legislation or change regulation.
    Tell me specifically as it relates to the Lycoming County 
example, that task force, what they're doing, or generally 
other examples. Tell me specifically what needs to be in place 
in terms of a practice or a procedure on the site to do 
everything possible to reduce the chances of injury or death or 
health and safety or environmental problems.
    Mr. French. Senator, there are a couple of things that come 
to mind just to start with. First of all, as permits are 
issued, that local emergency responders can be notified of 
those. There is a system that the DEP--an electronic system 
that DEP has available, not only for first responders, but to 
anyone who should choose to subscribe, to first alert that 
there is a permit issued and a well that is anticipated; 
second, there's a list of chemicals or items that will be used 
in that process so that first responders can, in fact, begin to 
prepare; and third, training to those particular potential 
hazards.
    So those two things have been done and will continue to be 
done, as was mentioned, with the training that is currently 
being prepared that the office of the State Fire Commissioner 
is working with.
    Those items and the familiarization of the site in general 
will better help first responders to know what they're 
encountering prior to arriving, and that safety-wise is a key 
for first responders as well as those on site. And in doing 
that, the better prepared they are with knowing what's at the 
site, the better their capabilities will be to respond.
    Senator Casey. Anyone else on this question about what 
should be in place on a site long before any incident happens?
    Mr. Tijerina. There's a couple of things I wanted to add to 
the record as far as additional things that have been learned. 
Some of them are some basic OSHA trainings that we feel that 
more people should have advanced or enhanced training with with 
regards to confined space. Even though we have specialty 
groups, the local or the typical first responder may not have 
been exposed to these. So when you're dealing with confined 
space entry, things of that nature, there's an inherent hazard 
associated with it. Therefore, gas monitors should be 
maintained.
    Some of the things that we have identified through some of 
our discussions through the training with first responders is 
that not all first responders have the proper equipment with 
regard to gas monitors and such at final location. Other things 
we have looked at was in familiarizing them with the drill site 
are material safety data sheets of all chemicals which were on 
site. So if they did need to go and identify what the chemical 
components were or hazards were, that information is readily 
available to them and where they can go to.
    We've also talked with them about other OSHA protocol, like 
lockout/tagout where a lot of equipment out there is electronic 
and there are things to be aware of upon coming onto a 
location, and by telling them the different components and 
types--there's a different jargon that's related to the oil and 
gas industry. So the No. 1 thing we tell them is find the 
person in charge, who is typically going to be a company 
representative, and tell them to take you there. Don't assume 
that if they tell you to go to the doghouse, that you know what 
the doghouse is. There's a lot of terminology like that. And at 
a time in the emergency, people are going to say things 
thinking that they are communicating and they're not.
    Some of the other things that are coming specifically from 
the Lycoming Energy Task Force is an algorithm for dispatchers 
which is going to enhance some studies or some training they're 
receiving now. What it does is it gives them an opportunity 
that if an emergency call did come in, that these dispatchers 
will be able to ask certain questions so that they can identify 
the right resources and they could be dispatched to that 
particular site.
    Another thing they've come up with is also a quick list 
upon arrival, and that is things like asking is there H2S on 
the well site, what all is going on, because the last thing you 
want is for somebody to approach a site unknowingly where there 
may be an H2S hazard, which is a poisonous gas, and all of a 
sudden you have injuries or fatalities.
    We're developing these types of checklists that can be used 
just as a precautionary measure upon arrival. This is not only 
for dispatchers, emergency responders, but also for law 
enforcement and medical services.
    Senator Casey. I wanted to ask Director French just in 
terms of what we know so far about the Indiana Township 
incident, anything you can tell us today that gives us an 
update for today?
    Mr. French. There is no final report at this point, but I 
think a case in point has just been highlighted. The first 
responders in knowing what they were dealing with, gas versus 
oil, we were able to choose the right type of retardant in 
order to help control the fire. That, again, goes back to the 
training and the exercise and the knowing what kind of chemical 
you're dealing with or what kind of incident you're dealing 
with in advance.
    So I think they did a tremendous job in their response in 
knowing what to do and knowing what they should not do.
    Senator Casey. Well, we look forward to the final report. I 
know so many families in southwestern Pennsylvania will be 
anxious to read that report.
    Professor, I wanted to ask you how you see this in terms of 
the set of standards that should be in place. You highlighted 
the history and the evolution of change in the coal mining 
industry. What kinds of standards do you think should be in 
place as it relates to oil and gas extraction?
    Mr. Iannacchione. There needs to be additional standards. I 
think everybody recognizes that. And that's an important thing 
for government to figure out what should they be. My point is 
that it's hard to imagine that we could come up with standards 
and regulations that cover every scenario out there.
    So in the case of the Clearfield County incident, it seems 
to me that if a proper risk assessment would have been done 
initially, a lot of the potential hazards and efficiencies in 
the design of that work process could have been addressed.
    I can't believe you could have just one prevention control 
in place. And then for it not to function means that something 
terribly wrong happened there. So if you're doing a risk 
assessment on your own and you're getting it reviewed by some 
independent organization, then deficiencies will be identified 
before any drilling occurs.
    With that particular process, I think how we can avoid the 
kind of situation that we had in Clearfield County is that this 
becomes your plan and you're suggesting that this is what you 
need to do. So when an inspector comes to the site, they look 
at your plan. If you're not following your own plan, I think 
that that's really inappropriate behavior, and the companies 
just wouldn't do that.
    I think going forward, we need a combination of regulations 
that set some baseline standard for industry to operate under, 
but we also need to ask industry to go beyond that, because we 
can't possibly identify every situation that's going to occur 
with those wells. There are a lot of hazards in drilling oil 
and gas wells, and they all need to be considered separately.
    An additional point, we talked about risk. Risk is a 
combination of the likelihood an event will occur and the 
consequence of those events. So if you drill in a remote area 
in Clearfield County and you compare it to drilling in 
Allegheny County, probably the likelihood something will go 
wrong will be similar, but the consequences are much different. 
I can't believe that the plan should be the same for drilling 
in a populated area or near a residence like June's as it would 
be if you were in a remote area. The consequences are much 
greater. So that needs to be considered.
    Senator Casey. I know you spent part of your testimony 
talking about risk assessment, which is obviously of critical 
importance. I wanted to draw upon some of the experience that 
CONSOL has had in a whole variety of circumstances and 
scenarios. Your drillers apparently are trained in blowout 
prevention. Examples like that in terms of your training, how 
would you compare some of that training that your employees 
have as opposed to industrywide? Do you think that's part of 
the problem? Is there a set of training regimens there, that 
are not in place, that you have? How do you assess just in 
terms of training?
    Mr. DeIullis. I think, Senator, that the training regimen, 
the equipment design, the layout of the risk assessment plans 
and the implementation of those plans, you're seeing two broad 
groups within the industry develop. One group takes a much 
longer view of things, and we're certainly in that camp. Again, 
we've been around for decades and decades. When we look at 
Marcellus Shale, we see another 30-, 40-year opportunity with 
regard to this region, which means when we look at it on the 
30- or 40-year horizon, everything CONSOL has spent with regard 
to training and infrastructure and equipment, from blowout 
preventers to training of contractors and employees, is an 
investment to make that 30- or 40-year opportunity come to 
fruition sooner rather than later.
    Another approach would be to look at it as simply the next 
well, whether because of the investment community or because of 
whatever stakeholder entity is interested in the here and now. 
When you look at it in terms of a short-term issue, your whole 
perspective changes with regard to those things we've 
discussed.
    I think it's critical, and this is something we draw upon 
with regard to the coal industry experience we've seen in the 
region. These are long-term opportunities, wonderful 
opportunities for this region. The path that we see that works 
in the past is one that has the values correct with regard to 
safety being at the top, and more importantly, in some 
instances taking a long-term view. We're going to be here not 
just this year, but next year, the following decade, etc, and 
we care as much about the region as anyone else does.
    I think sometimes that long-term perspective gets lost both 
with regard to the companies at times because there's a lot of 
pressure to look at certain well results and drill that next 
well and pollution techniques and those type of things with 
regard to the investment community on Wall Street, looking at 
quarterly results as opposed to looking at longer term story 
and opportunities, and frankly, too, with regard to a lot of 
the people that are leasing these rights.
    It's oftentimes simply dollar per acre and royalty rates 
that they're interested in, which, of course, are important 
from a money standpoint, but if I'm a land owner and I live in 
this area, this region, I want to know that the person and the 
department I'm dealing with on the drilling development side 
does have the values in the right order and is going to take a 
long-term view with regard to that list. I plan on being here 
so we don't have the situations or incidents arise that June 
outlined.
    Senator Casey. When we assess what happened in Clearfield 
County, it's as if it was an example that was one you could 
develop in a training class where you would say here are the 
things that could go wrong and what you have to do to prevent 
it. It seemed like so many things went wrong.
    You had the delay of hours and hours before not just 
notification, but then additional delay of many hours before 
you had someone at the site. That was one big problem, the long 
delay. Two parts of the delay.
    Then you also had a lack of expertise on the ground. You 
had to wait for people to be flown in from Texas to provide 
expertise there. In Clearfield County, it's a list of problems.
    I noted in the proposed legislation that I have, among 
several elements here, one of the them is to contact--there are 
several of them--contacting first responders within 15 minutes, 
contacting OSHA within 1 hour, providing and then making sure 
more broadly there's communication technology at the site.
    You mentioned that one of the priorities that you focus on 
is communication. I want you to elaborate on that in terms of 
what you do, what you've found to be particularly effective 
just to the issue of communication.
    Mr. DeIullis. Communication, I can't emphasize enough the 
importance of that, especially when you're in the midst of a 
crisis. Time is of the essence. You look at some of the tools 
we employ within CONSOL Energy.
    One of the basic components of that is what we call our 
command center. Our command center is located in our corporate 
headquarters. It's manned 24 hours a day, 7 days a week, 365 
days a year. We're aware if there's any big problem again with 
regard to an accident at one of our gas well sites or mining 
locations, whether it's contractor or employee, if some piece 
of equipment goes down, if there's a power failure that affects 
the safety of that operation, or any type of agency, whether 
it's MSHA, OSHA, State, Federal, all of the above, need to be 
notified.
    The purpose of that command center is to make sure that 
that information is deployed as soon as possible in real time, 
that everybody, more importantly, is on the same page with 
regard to what the situation is.
    Now, the concept of the command center is not something we 
haven't seen before across different activities or industries 
in this country, and, again, it's an investment that we made 
not for just the here and now, today or this week or next 
month. It's an investment we've had for years, that we take a 
decade after decade approach with regard to that.
    So the command center, whether it's in Clearfield County if 
that's where you're drilling, or whether it's headquarters 
related, and it goes out across the entire company, regulator 
base and first responders. It's one of the most basic things 
that helps address that communication issue right off the bat.
    The other thing though that's important is that the command 
center is ready, but as we've discussed earlier and you heard 
earlier this morning, drilling and during the drilling phase 
and completion phase is not a 9 a.m. to 5 p.m. activity. It's a 
24-hour activity, which means you either look at the site 
assessment to make sure you got people on site at 3 a.m. just 
like you do at 2 p.m. that are trained in terms of how to 
notify, who to notify, training with regard to the proper 
procedures and processes, because when we look at risk, risk 
doesn't punch out at 5 p.m. Risk is a 24-hour issue.
    Senator Casey. I wanted to go back a moment to some of the 
core elements of what makes a good safety regimen that provide 
that kind of assurance. I did want to ask June Chappel a couple 
of questions about her own experience.
    We're grateful that you would come here today and provide 
the testimony, especially in light of the personal tragedy 
you've had to live through.
    As you were testifying, I was writing down the words that 
kind of leaped off the page and kind of leaped from the 
microphone, so to speak. I wrote down the word smell, noise, 
scared, days of sleep lost, words like that and phrases like 
that.
    Part of this, I guess, is we can think of the most extreme 
examples of what communities are living through, and obviously 
when there's a death or a severe injury related to and/or a 
site related to the drilling, that's the most poignant, most 
substantial example, but also just the kind of day-to-day 
quality of life issues that sometimes don't get as much 
attention as a death or injury or substantial environmental 
contamination or degradation.
    The testimony you provided today, that kind of walk through 
your life and the community that you live in that highlights 
just the grind of this, whether it's the noise, the smell or 
the kind of anxiety that it can produce is especially 
important, and then, of course, the part of your testimony that 
talked about your husband with that diagnosis just wanting to 
have some peace and, of course, you and your loved ones wanting 
to give him that kind of peace that everyone should have a 
right to expect.
    I guess it's hard for us to encapsulate that kind of 
experience, even in one set of testimony, but we're grateful 
that you did that. I wanted to ask you as well, what do you 
think we can be doing better, not just in terms of responding 
to an emergency and not just in terms of preventing something 
like a death or severe injury or environmental contamination? 
What could we be doing better at the State and Federal level to 
speak to some of the issues that you raised in terms of kind of 
quality of life and issues like that that you highlighted?
    Ms. Chappel. I would like to see that these wells are not 
placed near people's homes and these impoundments.
    Senator Casey. The proximity?
    Ms. Chappel. Yes. What was done to me, it was horrific. It 
was just never ending. For 2\1/2\ years, every day, every day 
and every night I had to put up with it, and it was just--to me 
there's no excuse for this. I didn't ask these people to come 
to my neighborhood, and it was just like they just could do 
what they wanted and whatever.
    But I really would like to see that regulations are passed 
so that they don't do this near people's homes again.
    These water impoundments, they're terrible. The smell, it 
makes you absolutely sick. It's like having a can of gasoline 
inside of your car and sitting in it. And that is the smell 
that you smell every day. And it just should not happen.
    Senator Casey. Prior to this, you had lived in that same 
location how long?
    Ms. Chappel. We've been there for 23 years.
    Senator Casey. Twenty-three?
    Ms. Chappel. Yes.
    Senator Casey. I was also going to ask you after the fire 
at the containment pond and you had contact with the Department 
of Environmental Protection you said, did local police or 
firemen contact you to follow up on the incident?
    Ms. Chappel. No, not at all, no one. No one did. It just 
seemed like everybody was just kind of being very quiet about 
this, like it didn't happen, but it did happen.
    Senator Casey. That speaks to the main issue we're talking 
about here today, which is how we respond on behalf of an 
incident.
    Ms. Chappel. Yes. I felt very, very unsafe. I mean, I was 
so frightened. I thought that big blue pipe was going to 
explode. I absolutely felt like I was going to have a heart 
attack right there.
    Senator Casey. I was also going to ask, and I should have 
done this earlier, can you describe just for the purpose of the 
record the picture that you referred to.
    Ms. Chappel. This is almost like outside of my back yard. 
Unless you've ever been near one of these flares, you just have 
no idea the amount of noise and the heat that these things put 
off. In my home I have windows with grates in them, and my 
grate were going like this for days. I mean everything in my 
house--
    Senator Casey. You mean shaking?
    Ms. Chappel. Shaking. Everything was rattling. We couldn't 
sleep. It was absolutely terrible.
    Senator Casey. This is a picture, just to be precise about 
the record, this is a picture you took?
    Ms. Chappel. Yes.
    Senator Casey. From your home?
    Ms. Chappel. My back yard. I have a lot more here that you 
can look at.
    Senator Casey. What's the date on there?
    Ms. Chappel. 9/7/2009. While this was going on, it was a 
very warm fall, and I had to have my windows and doors, 
everything, shut in my house.
    Senator Casey. September 7, 2009?
    Ms. Chappel. Yes.
    Senator Casey. I wanted to go back as well to get a better 
sense of the--and I ask this question for all of our witnesses. 
Just in terms of the checklist, I know the legislation that I 
proposed again just in terms of the highlights of it, having 
OSHA issue regulations that have an employee knowledgeable in 
responding to emergencies present at the well site at all 
times, making available a certified response team within 1 hour 
ground travel time, and then the time intervals for contacting 
first responders, OSHA and National Response Center, the 
communication issue that I highlighted before, annual training 
of first responders, and finally an annual report with OSHA.
    But more broadly or even adding to that list or 
highlighting it, anything that any of our witnesses--any point 
you wanted to make about how we can add to this legislation or 
make it stronger in terms of those safety precautions that we 
can put into place?
    Mr. Iannacchione. I guess one question I had when I was a 
looking at the draft, Senator, this one person that would be 
responsible, that's a lot different than the situation we have 
in the mining industry where the mining sites are contained in 
well-defined areas and they're there for years, and there's 
typically one person that's responsible at the site.
    A lot of the oil and gas drilling operations, from what I 
understand, have multiple companies that have responsibilities. 
So I was curious as to how we would be able to really determine 
who that one person is and how that part of the operation can 
be defined with so many different people coming in.
    Senator Casey. Well, certainly I think OSHA would have to 
provide a number of definitions that are highlighted, whether 
it's that definition or others. That would be part of the 
regulatory process.
    Anything you wanted to provide to us, and of course, this 
applies to all of our witnesses, you can add to your testimony 
and add to the record. Any guidance on that issue we would 
appreciate. Because one of the questions that I have, and I'll 
leave the question I just asked on the table for our witnesses, 
but in addition to other provisions that we might want to 
consider, one of the challenges we're going to have is if we're 
going to require expertise, we have to make sure that we have a 
ready supply and have the education and training programs in 
place to provide that kind of expertise at the site and even 
offsite that comes to the site to respond.
    Anyone else before we move on to another question?
    Ms. Chappel. I would like to let you know that 2 weeks ago 
at 1 a.m., I had to call 911 because I could hear this 
screaming roar of the gas lines right next to my home. I didn't 
know what to do. I was really frightened again. I called 911, 
and the 911 operator said he would have to get his supervisor 
because he did not know who to contact to find out what was 
going on out there at my house. So I called 911, and I still 
don't feel safe. It's terrible.
    Senator Casey. So when he said that, what happened after 
that? He said he had to contact his supervisor?
    Ms. Chappel. He had to get his supervisor to find out who 
to call to see what was going on up there. I later found out 
that they were purging the lines. I was never notified that 
anything had happened. All I know is I woke up in the middle of 
the night, and these lines were screaming, and I was so afraid 
that it was going to blow up.
    You know, it's terrible, but I live there, and I don't even 
feel safe in my home.
    Senator Casey. You found out later what happened?
    Ms. Chappel. Yes. I was told by someone at the gas company 
that they were purging the lines.
    Senator Casey. That's another example of what we need to 
improve on?
    Ms. Chappel. Yes, exactly.
    Mr. DeIullis. Senator, I think, too, when we look at the 
number of companies within the industry, the geographical scope 
of what we're looking at and the long-term nature of this, the 
magnitude of the training demand for everything from first 
responders and emergency response to the actual providing of 
the activities from start to finish, it's an enormous 
opportunity, but it's an enormous number of workers and 
training that we're going to need to initiate upon as a region.
    That's going to require not just the players within the 
industry. It's going to require the assistance and coordination 
of educational institutions across this region. It's going to 
need to include policymakers like yourself, and it's going to 
need to include in some, shape or form labor as well.
    Until we get all of those different links in that chain of 
development lined up and really focusing on what, again, is an 
enormous opportunity but an enormous task at hand as well, the 
number of wells, the number of players, the number of acres 
that we're looking at, we're not just talking about a couple 
dozen individuals. We're talking about hundreds and hundreds of 
workers that need to be trained across a range of different 
areas.
    Senator Casey. I guess part of this, if it isn't done 
already, part of this is an assessment of the numbers that 
we're going to need in terms of all kinds of workers and then 
those that have particular training or expertise. If I had to 
guess, I would say that if you did that assessment, we would 
find a deficiency somewhere along the line, either places in a 
State like ours where you have the curriculum or training 
program available, maybe not the funding that's necessary, or 
places where you have the potential for expertise to be 
developed or a workforce, maybe not enough of a training 
structure in place or curriculum.
    In terms of providing that kind of expertise, what do you 
think we're going to need in place? Is this just the 
enlargement of existing training programs and funding for it, 
or do you think you're going to need to deploy a whole new set 
of training or curriculum? Does anybody have any thoughts on 
that?
    Mr. French. Senator, in regard to the training itself, like 
other training that we will do for hazardous materials or 
response, it has to be institutionalized so it's not a one time 
and done. It is, as was mentioned, a very broad training base 
of the industry, of first responders and emergency managers in 
general. Then there's the communication piece, which I 
certainly value June's comments about, getting back to folks 
after an event has taken place.
    So the training part is one that will be an ongoing 
process. That's what we want to develop. The industry has been 
doing some training for the first responders. We are broadening 
that out through what we're doing with the local government and 
State Fire Commission.
    Senator Casey. I know we're running low on time. I want to 
leave a couple moments for wrap-up. Anyone have any comment you 
want to make or any point you want to make before I wrap up?
    Mr. Tijerina. There are a couple of things I'd like to 
address, if you don't mind.
    Senator Casey. Mr. Tijerina.
    Mr. Tijerina. Senator, one of the things that we need to 
assess is the definition of an incident or a situation where a 
notification needs to be made. When we talk about well control 
training that we expect people to have, some of that activity 
is based on different levels.
    A level one, for example, are things that the workers are 
trained on to deal with when it comes--whenever a kid or 
something comes up where they have to control the well. They're 
taught this through SEMA measures. Usually it's a 3- or 4-day 
class that they have to go through. These occur all the time 
because that's part of the drilling operation, is keeping 
everything in balance.
    When it gets to a level two, that is typically whenever you 
have a potential situation occur. It can still be managed, but 
you don't necessarily need to have a well control expert there 
to actually perform the duties.
    When you start getting into a level three, that's when you 
have a situation. And when you start talking about expertise 
and people that respond, just bear in mind that there are 
different levels of activity that are going on, and, therefore, 
when we define expertise, which level are we really looking at.
    Senator Casey. Level three meaning greater severity?
    Mr. Tijerina. Right. That's where when some of these 
companies that respond that have these well control 
specialists, most of them have a minimum of 15, 25 years' 
expertise before they're even asked to come in and be trained. 
That's oil well experience, not firefighters. So there's a 
number of things these companies do whenever they decide to 
bring somebody into their employment.
    Right now, like I've indicated, there's about 60 or less of 
these well control specialists and advisors that actually go to 
the activities or the well control situations worldwide. So if 
you're talking about training someone to that level, there is 
going to be the time that it's going to take for people to 
actually go through that type of training.
    Senator Casey. When you say that level, you mean?
    Mr. Tijerina. Where they can respond to a well 
understanding the engineering of the facing of the well, all 
the components there, the equipment, how it all works, whether 
you're snubbing or drilling, whatever the case is. They need to 
understand the industry and what all the different components 
are because they do relate to each other.
    If you have somebody respond that says I'm going to shut 
this valve off, well, if they shut that valve off, there's a 
possibility that they may have a problem down the hole and now 
you have one underground. That creates a whole new situation. 
That's why they take engineering techniques to understand the 
whole aspect of what's going on with respect to all the 
provisions and how to counteract it.
    Senator Casey. I know we have to wrap up, and I hate to cut 
everyone off. The record will be open. It will be open for 10 
days if you want to submit additional testimony or more 
information. We appreciate that. I'll adjourn the hearing now. 
Thank you very much for being here.
    The hearing is adjourned.
    [Additional Material follows.]

                          ADDITIONAL MATERIAL

 Prepared Statement of the Independent Petroleum Association of America
    This testimony is submitted by the Independent Petroleum 
Association of America (IPAA). IPAA represents the thousands of 
independent oil and natural gas explorers and producers, as well as the 
service and supply industries that support their efforts, that will be 
significantly affected by the Faster Action Safety Team Emergency 
Response Act of 2010 (FASTER Act). Independent producers drill about 90 
percent of American oil and natural gas wells, produce over 65 percent 
of American oil, and more than 80 percent of American natural gas. 
American natural gas is a clean, abundant, affordable energy source 
that should be part of any clean energy agenda; American natural gas 
and oil should be part of any national energy security initiative.
    IPAA believes the FASTER Act is a solution in search of a problem. 
There are approximately 970,000 operating oil and natural gas wells in 
the United States today. Over the past several years, drilling activity 
has added about 45,000 new wells annually. Nothing in the information 
presented at this hearing suggests that there are an excessive number 
of incidents at wells that justifies the expansive new response 
structure that would be created in the FASTER Act. Nothing in the 
hearing record suggests that the existing State regulatory programs are 
not fully capable of responding to events that do occur.
    To put this issue in a better perspective, most of the accidents 
are single worker incidents that do not involve a threat to co-workers 
or the public. Fires and well control incidents are the most serious. 
These types of incidents are extremely rare and normally do not pose a 
risk beyond the immediate area of the well or equipment. Fires and well 
control incidents normally require securing the site and calling well 
control experts, who have developed very specialized expertise through 
operational experience and by handling these types of incidents 
countrywide or worldwide. The well control companies, such as Boots & 
Coots or Wild Well Control, typically provide immediate advice to the 
well-site by telephone and are able to physically arrive at a well site 
within hours. The equipment that they need is often being mobilized 
while they are traveling to the site--equipment that is often 
specialized for the particular type of incident and does not need to be 
positioned until the type of incident is assessed. Similarly, response 
to these incidents is not suited to routine training. Rather, rig crews 
are trained to minimize the risks to themselves and to contain the 
situation until experts arrive. The specialized skills of the well 
control experts would have little benefit if the scope of their work is 
constrained to a certain area in a State (e.g., 1 hour from the well 
site). Instead, it makes sense for these individuals to continue being 
organized in offices throughout the United States and to have all wells 
in the United States or North America or the World within the scope of 
their work. This approach allows them to keep their skills current and 
gain experience.
    The FASTER Act draws its structure from the mining industry. It is 
not a pertinent model. Mining law regulations require mine operators to 
provide two mine rescue teams that must possess certain qualifications, 
training and certifications and be available to each mining location 
within a specified period of time. There also must be mine rescue 
stations with specified equipment at locations available for immediate 
use by the mine. The risks facing underground miners are very different 
from the risks of drilling and completing oil and natural gas wells. 
Accidents at onshore well locations that would endanger multiple 
parties or the public are extremely rare. Having a rescue team 
available would not make any difference to the safety of the rig crew 
or the public. In short, requiring rescue teams and rescue stations for 
oil and gas operations would be an unnecessary waste of time, money and 
resources.
    For these reasons, IPAA does not believe that the FASTER Act is 
either justified or appropriately structured to address the types of 
incidents that occur at oil and natural gas drilling and production 
operations. State regulatory programs have demonstrated their 
capability to manage the limited number of incidents that occur without 
needing the excessive Federal structure proposed in the FASTER Act. 
Furthermore, current industry capabilities have and will continue to 
offer quick and effective response to well control problems.
         Response to Question of Senator Enzi by Ralph Tijerina
    Question. Mr. Tijerina, I'd like to draw on your 32 years of 
experience within the natural gas extraction industry and training 
first responders. What are your views of OSHA-mandated training for 
first responders?
    Answer. Most first responders in Pennsylvania are volunteers and 
there would be extreme difficulty for volunteer organizations to comply 
with this since there are no obligations for first responders to attend 
the training. These volunteers should be commended for their 
willingness to provide their time and courage to help others in their 
dire needs. For industry to provide them with the knowledge they need 
to secure an area on a well-site during a well control situation is the 
most that should be expected of volunteers. The well control needs 
should be provided by experts in this area.
    There are currently procedures that the State requires with regard 
to notifying local emergency response agencies when an emergency 
occurs. The guidelines exist and the need to create additional Federal 
regulations is not necessary. It is actually a matter of ensuring that 
all industries notify the State regulatory agencies where applicable 
and the Federal regulatory agencies where applicable and not having to 
contact both. The responders in these cases are local and State 
agencies unless Federal agencies such as OSHA respond as they would to 
any other industry that has an industrial incident.
    Having a response team available to be on site within 1 hour by 
land is an expectation that would be difficult to meet. Due to the 
remoteness of some of the sites and weather conditions such as ice and 
snow; the ability to get there in the time allocated could cause a 
safety issue as one tries to speed or drive erratically to meet the 
timeframe. Most well sites are hours away from the main or field 
offices. Providing a longer response time for specialized personnel to 
respond would be the best alternative to the 1 hour stated.
    Reporting the team assigned to the well site on an annual basis may 
not provide viable information if the wells are drilled and completed 
before the reporting period. Outside of referencing compliance, the 
value of the report is limited in its usefulness. Having this 
information available during the exploration process would be more 
useful.

    [Whereupon, at 11:55 a.m., the hearing was adjourned.]


</pre></body></html>
